<html>
<title> - CUTTING OUT THE WASTE: AN OVERVIEW OF H.R. 5766, THE GOVERNMENT EFFICIENCY ACT; AND H.R. 3282, THE ABOLISHMENT OF OBSOLETE AGENCIES AND FEDERAL SUNSET ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
    CUTTING OUT THE WASTE: AN OVERVIEW OF H.R. 5766, THE GOVERNMENT 
EFFICIENCY ACT; AND H.R. 3282, THE ABOLISHMENT OF OBSOLETE AGENCIES AND 
                       FEDERAL SUNSET ACT OF 2005

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 5766

   TO PROVIDE FOR THE ESTABLISHMENT OF FEDERAL REVIEW COMMISSIONS TO 
     REVIEW AND MAKE RECOMMENDATIONS ON IMPROVING THE OPERATIONS, 
EFFECTIVENESS, AND EFFICIENCY OF FEDERAL PROGRAMS AND AGENCIES, AND TO 
REQUIRE A SCHEDLE FOR SUCH REVIEWS OF ALL FEDERAL AGENCIES AND PROGRAMS

                                 AND ON

                               H.R. 3282

TO PROVIDE FOR THE PERIODIC REVIEW OF THE EFFICIECY AND PUBLIC NEED FOR 
    FEDERAL AGENCIES, TO ESTABLISH A COMMISSION FOR THE PURPOSE OF 
   REVIEWING THE EFFICIENCY AND PUBLIC NEED OF SUCH AGENCIES, AND TO 
 PROVIDE FOR THE ABOLISHMENT OF AGENCIES FOR WHICH A PUBLIC NEED DOES 
                               NOT EXIST

                               __________

                             JULY 19, 2006

                               __________

                           Serial No. 109-165

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-331                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2006....................................     1
Text of H.R. 5766................................................     2
Text of H.R. 3282................................................    21
Statement of:
    Brady, Hon. Kevin, a Representative in Congress from the 
      State of Texas.............................................    70
    Horney, James R., senior fellow, Center on Budget and Policy 
      Priorities; and Charles M. Loveless, director of 
      legislation, American Federation of State, County and 
      Municipal Employees [AFSCME]...............................    99
        Horney, James R..........................................    99
        Loveless, Charles M......................................   105
    Tiahrt, Hon. Todd, a Representative in Congress from the 
      State of Kansas............................................    56
Letters, statements, etc., submitted for the record by:
    Brady, Hon. Kevin, a Representative in Congress from the 
      State of Texas, prepared statement of......................    72
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   113
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    42
    Horney, James R., senior fellow, Center on Budget and Policy 
      Priorities:
        Prepared statement of....................................   102
        Written paper on sunset commission proposals.............    91
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California, prepared statement of.......................    54
    Loveless, Charles M., director of legislation, American 
      Federation of State, County and Municipal Employees 
      [AFSCME], prepared statement of............................   107
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    45
    Tiahrt, Hon. Todd, a Representative in Congress from the 
      State of Kansas, prepared statement of.....................    59
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    85
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    48


    CUTTING OUT THE WASTE: AN OVERVIEW OF H.R. 5766, THE GOVERNMENT 
EFFICIENCY ACT; AND H.R. 3282, THE ABOLISHMENT OF OBSOLETE AGENCIES AND 
                       FEDERAL SUNSET ACT OF 2005

                              ----------                              


                        WEDNESDAY, JULY 19, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Gutknecht, Porter, 
Dent, Foxx, Schmidt, Waxman, Lantos, Maloney, Cummings, 
Kucinich, Watson, Lynch, Ruppersberger, and Higgins.
    Staff present: Ellen Brown, legislative director and senior 
policy counsel; Mason Alinger, deputy legislative director; Rob 
White, communications director; Teresa Austin, chief clerk; 
Michael Galindo, deputy clerk; Kristin Amerling, minority 
general counsel; Michelle Ash, minority chief legislative 
counsel; Krista Boyd, minority counsel; Mark Stephenson, 
minority professional staff member; Earley Green, minority 
chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order. Good 
morning. I want to thank everybody for coming. The purpose of 
today's hearing is to discuss two specific legislative 
proposals that have been introduced to this Congress to improve 
the operation and effectiveness of programs and agencies in the 
Federal Government. The first bill H.R. 5766, the Government 
Efficiency Act, which was introduced by Representative Tiahrt 
earlier this month, the legislation would authorize the 
establishment of a bipartisan Federal Review Commission to 
study whether a specific aspect of Federal Government 
operations would function more efficiently and effectively if 
some or all of the relevant Federal programs and agencies were 
reorganized, consolidated, abolished, expanded or transferred. 
Legislative proposals drafted by the bipartisan commissions 
would then be considered in Congress pursuant to expedited 
procedures.
    [The text of H.R. 5766 follows:]


    [GRAPHIC] [TIFF OMITTED] T9331.001
    
    [GRAPHIC] [TIFF OMITTED] T9331.002
    
    [GRAPHIC] [TIFF OMITTED] T9331.003
    
    [GRAPHIC] [TIFF OMITTED] T9331.004
    
    [GRAPHIC] [TIFF OMITTED] T9331.005
    
    [GRAPHIC] [TIFF OMITTED] T9331.006
    
    [GRAPHIC] [TIFF OMITTED] T9331.007
    
    [GRAPHIC] [TIFF OMITTED] T9331.008
    
    [GRAPHIC] [TIFF OMITTED] T9331.009
    
    [GRAPHIC] [TIFF OMITTED] T9331.010
    
    [GRAPHIC] [TIFF OMITTED] T9331.011
    
    [GRAPHIC] [TIFF OMITTED] T9331.012
    
    [GRAPHIC] [TIFF OMITTED] T9331.013
    
    [GRAPHIC] [TIFF OMITTED] T9331.014
    
    [GRAPHIC] [TIFF OMITTED] T9331.015
    
    [GRAPHIC] [TIFF OMITTED] T9331.016
    
    [GRAPHIC] [TIFF OMITTED] T9331.017
    
    [GRAPHIC] [TIFF OMITTED] T9331.018
    
    Chairman Tom Davis. The second bill, H.R. 3282, the 
Abolishment of Obsolete Agencies and Federal Sunset Act of 
2005, introduced by Representative Kevin Brady, this 
legislation would establish a bipartisan Federal agency sunset 
commission to review and evaluate the efficiency and public 
need for every Federal agency on a periodic basis and report 
its recommendations to Congress. The legislation would require 
the Federal agency to be abolished within 1 year of the 
commission's review unless Congress either reauthorized the 
agency or extended the deadline for abolishment.
    [The text of H.R. 3282 follows:]


    [GRAPHIC] [TIFF OMITTED] T9331.019
    
    [GRAPHIC] [TIFF OMITTED] T9331.020
    
    [GRAPHIC] [TIFF OMITTED] T9331.021
    
    [GRAPHIC] [TIFF OMITTED] T9331.022
    
    [GRAPHIC] [TIFF OMITTED] T9331.023
    
    [GRAPHIC] [TIFF OMITTED] T9331.024
    
    [GRAPHIC] [TIFF OMITTED] T9331.025
    
    [GRAPHIC] [TIFF OMITTED] T9331.026
    
    [GRAPHIC] [TIFF OMITTED] T9331.027
    
    [GRAPHIC] [TIFF OMITTED] T9331.028
    
    [GRAPHIC] [TIFF OMITTED] T9331.029
    
    [GRAPHIC] [TIFF OMITTED] T9331.030
    
    [GRAPHIC] [TIFF OMITTED] T9331.031
    
    [GRAPHIC] [TIFF OMITTED] T9331.032
    
    [GRAPHIC] [TIFF OMITTED] T9331.033
    
    [GRAPHIC] [TIFF OMITTED] T9331.034
    
    [GRAPHIC] [TIFF OMITTED] T9331.035
    
    [GRAPHIC] [TIFF OMITTED] T9331.036
    
    [GRAPHIC] [TIFF OMITTED] T9331.037
    
    [GRAPHIC] [TIFF OMITTED] T9331.038
    
    Chairman Tom Davis. This will be the eighth hearing 
conducted in the committee in recent years to discuss the need 
for a legislative tool that would authorize limited 
reorganizations of the executive branch intended to improve the 
operations and effectiveness of the Federal Government. Three 
hearings having been held to discuss the need to develop 
legislation to address overlap and duplication governmentwide; 
four case study hearings have been held to assess the extent of 
overlap and duplication in specific areas of Federal 
operations.
    After spending the last 3.5 years exploring various 
approaches to eliminating the overlapping duplication, we are 
here today to discuss the merits of two particular proposals 
aimed at addressing the specific issues and to pose questions 
to the bill sponsors about the specifics of their proposals. 
The purpose is to give members in this committee an opportunity 
to ask their questions and raise their concerns before we 
reconvene tomorrow morning to conduct a business meeting to 
consider these two proposals.
    I would now like to introduce our witnesses. Our first 
panel, Representative Todd Tiahrt and Representative Kevin 
Brady, have long championed the need to reduce waste, fraud and 
mismanagement in the Federal Government, and I applaud the 
witnesses.
    The second panel of witnesses includes James Horney, senior 
fellow from the Center on Budget and Policy Priorities; and 
Charles Loveless, legislative director for the American 
Federation of State, County, and Municipal Employees.
    I want to just welcome all of the witnesses to today's 
hearing, and I look forward to hearing their testimony. Any 
other Members who wish to speak.
    Mr. Ruppersberger.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.039
    
    Mr. Ruppersberger. First, I want to acknowledge Mr. Tiahrt 
and Mr. Brady. You are focussing on issues of fiscal 
responsibility and accountability. I might not agree exactly 
with your bill, but I applaud you for moving ahead.
    Mr. Chairman, let me first thank you for having the 
hearing. I support efforts to seek to evaluate programs on 
their merits and increase government efficiencies. However, I 
have concerns about the two bills before us today. The lack of 
a truly nonpartisan commission leads me to believe that 
recommendations made by the commission could be politically 
biased and therefore result in program determinations that are 
not based on necessity or merit.
    Some supporters argue that these sunset commissions would 
operate like the BRAC commission which has been successful in 
consolidating our military bases. However, BRAC commissioners, 
while appointed by the President, must be confirmed by the 
President--or by the Senate. This is a congressional check that 
is lacking in these two bills before us.
    In addition, I have concerns about who is the most 
appropriate person or group of people who set policy and 
evaluate some very highly technical and sensitive Federal 
programs. While commissioners might have some expertise, they 
would certainly not be experts in all Federal programs. This is 
why we have a committee system here in Congress.
    Committees allow Members to develop expertise in issues and 
programs that fall within their committee's jurisdiction. The 
question becomes, do we want people who may not have any 
expertise in any particular issue evaluate the usefulness of a 
certain Federal program? And whose role should it be to do 
oversight of Homeland Security and intelligence programs in the 
agencies? And I know Mr. Tiahrt is on the Intelligence 
Committee. I believe the answer to both is, Congress. I am 
looking forward to hearing your discussions, but unfortunately, 
I have to go to an Intelligence hearing. Thank you.
    Chairman Tom Davis. Any other Members wish to make opening 
statements?
    Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman, appreciate you having 
the hearing today.
    And to our colleagues that are here sponsoring the bills, 
as you know, as subcommittee chairman, I have had a number of 
hearings myself on some duplicate programs, and I don't 
remember the exact details, but it seems to me there are six or 
seven different agencies looking at frozen pizzas across the 
country. One looks at pepperoni. One looks at cheese. One looks 
at hamburger. And as we had these hearings, these different 
agencies would defend their right to inspect those pizzas, and 
it really amazes me that we have so many duplicate programs. 
And I believe a lot of our Federal agencies are convinced, in 
fact, that we need duplications. And maybe there are times when 
that should happen, but after numerous hearings, listening to 
the arguments for and against, time and time again, there would 
be examples of programs that are duplicate and should not be 
removed entirely from our system, but those that are duplicated 
should be consolidated and certainly will do a better job 
serving the public.
    One of the areas, if I recall, is 70 or 80 programs in our 
school system that are administered by three or four different 
agencies that are duplications across the country. So I could 
go on and on and on and on, and I just appreciate having this 
opportunity, and I would hope that this Congress would not let 
the perfect get in the way of legislation. There are those that 
agree and disagree with some of the process and procedures, but 
we owe it to the taxpayers of this country to make sure that we 
run our government as efficiently as possible. So I thank you 
for this hearing, and look forward to the testimony. Thank you.
    [The prepared statement of Hon. Jon C. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.040
    
    Chairman Tom Davis. Thank you.
    Our distinguished ranking member has arrived.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    This hearing is on two legislative proposals that have back 
door assaults on the laws that protect the health, safety and 
security of American families. The first bill introduced by 
Representative Brady, H.R. 3282, would automatically abolish 
every Federal agency within 12 years. It would--it just would--
it is so amazing, it is worth repeating: It would automatically 
abolish every single Federal agency. The title of the bill is, 
Abolishment of Obsolete Agencies Act, but it doesn't identify 
obsolete agencies for abolition. It sets an extermination 
schedule for every Federal agency. Is the Centers for Medicare 
and Medicaid Services, which runs the Medicare and Medicaid 
programs that provide healthcare to millions of seniors, 
children and the disabled, obsolete? Is the Environmental 
Protection agency, which protects Americans from air and water 
pollution, obsolete? Is the Social Security Administration 
obsolete? Or the Occupational Health and Safety Administration, 
the Department of Veterans Affairs or the Department of 
Education? The answer is obvious. These Federal agencies aren't 
obsolete. They play a vital role in protecting the welfare of 
all Americans, yet all of them would be eliminated under the 
Brady bill.
    I know there are Republicans who want to eliminate the EPA. 
The House Speaker, Newt Gingrich, said he wanted Medicare to 
shrivel on the vine. President Bush proposed cutting Social 
Security and eliminating important veterans' benefits, but none 
of these proposals could ever pass Congress. The public support 
for the programs is simply too strong, and you simply need to 
look at the Department of Education. I think the Contract for 
America--or as we call it, the Contract on America--called for 
the abolition of the Department of Education, and yet now that 
the Republicans have the majority and control over all the 
branches of government, I haven't seen any proposals to abolish 
that department. So the Brady bill is a clever effort to 
achieve the same results through the back door.
    Today we are going to hear a lot of rhetoric about 
streamlining government and reducing waste, and we are going to 
be told that passing this bill is part of a Republican effort 
to make government more efficient. No one in Congress has done 
more than I have to rout out waste, fraud and abuse. Just last 
month I released a report identifying 118 Federal contracts 
with over $750 billion that are rife with waste, fraud, abuse 
and mismanagement, but not a single Republican has approached 
me about the study or suggested working together to eliminate 
this pervasive squandering of taxpayer dollars.
    The real agenda here isn't wasteful spending. It is an 
effort to hold a legislative gun to the head of a number of 
important government priorities. If that bill passes, 
Republicans will say to Democrats, either you agree to weaken 
the environmental protections or privatize medical--Medicare 
and Social Security or slash veterans' benefits or we will sit 
back and allow the agencies that run these programs to expire. 
It is harder when you have a bicameral legislature to get a 
bill passed, which is what would have to happen to keep these 
agencies alive. A minority of a minority can often threaten a 
filibuster, block action, and that would mean that there would 
be an automatic expiration of these agencies.
    The Tiahrt bill, H.R. 5766, is less extreme, but its 
objectives are the same. Under this bill, there is no sunset. 
Instead, unelected commissions are created that can recommend 
abolishing or changing the function of Federal agencies. Then 
the recommendations must be voted on by Congress under fast-
track procedures. The tiered bill is a massive transfer of 
power from the legislative body to the executive branch, and 
like the Brady bill, it puts key health and safety programs in 
constant jeopardy.
    Mr. Chairman, I believe these bills are badly flawed, but I 
am glad we are having this opportunity to explore their 
consequences. While the bills are flawed, the two gentlemen who 
offered them are very fine gentlemen, and I have a high regard 
for them, so I wouldn't want them to take my comments in any 
way personally, but I do disagree with them on this 
legislation. And I am especially grateful that you accommodated 
our suggestion about the witnesses for the second panel, and I 
do want to correct--because I think credibility's important--I 
am not sure that abolishing the Department of Education was a 
contract, but it might have been one of the priorities for 
Speaker Gingrich and other----
    Chairman Tom Davis. It was a subcontract for some people.
    Mr. Waxman. Subcontract. It was a contract out, a contract 
on the Department of Education. But, Mr. Chairman, that 
outlines why we feel as strongly as we do on this issue.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.041
    
    [GRAPHIC] [TIFF OMITTED] T9331.042
    
    [GRAPHIC] [TIFF OMITTED] T9331.043
    
    [GRAPHIC] [TIFF OMITTED] T9331.044
    
    Chairman Tom Davis. Mr. Waxman, you have been consistent in 
that, and we appreciate all your support on both pieces of 
legislation. I think we could have a spirited debate.
    I would say to Todd and Kevin, you have a lot of convincing 
to do in your opening testimony to bring Mr. Waxman over. We 
are trying to build this by consensus. I am not sure we will be 
able to do it on this issue, but I look forward to working with 
you on the other matters that you brought up.
    Do you want to say anything, Tom? We will introduce Mr. 
Lantos very quickly for an opening statement.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    Today this committee is going to hear from some of our 
colleagues about legislation that would create commissions to 
abolish or reorganize Federal agencies and programs. And there 
is no Member of Congress for whom I have higher regard and more 
personal affection than my friend Kevin Brady. Opening 
statements will be made about trimming fat from the Federal 
budget, but the sad truth is that these bills are nothing more 
than the outsourcing of the work of the Congress, and it will 
deprive this body of its constitutional role as lawmaker and 
the check on the executive branch.
    Instead of zealous oversight by Congress, the two pieces of 
legislation before us aim to create an unelected board to 
decide which agencies or programs within agencies are to be 
terminated. The system our Founding Fathers created over two 
centuries ago would give way to something that Kafka would 
like, a faceless body of unelected and unaccountable hatchet 
men working under the cloak of darkness.
    I recognize, Mr. Chairman, that we in Congress have many 
obligations and never seem to have enough time to do all the 
people's work. After all, today is the 200th day of the 
calendar year, and despite that, under the present management, 
we have been in session only 62 days. Mr. Chairman, I am a 
professional economist, and I am sure that you will agree that 
a schedule that has us out of Washington so much of the time is 
not very efficient or economical in terms of the use of our 
resources. But I do not believe that a potentially 
unconstitutional delegation of our jobs is necessary to fix 
this inefficiency. I believe it is absurd to assume that a 
short-lived commission charged with reviewing multiple programs 
will have either the reach or the expertise of a standing 
congressional committee and its staff.
    After reviewing this legislation, I was disturbed to think 
about the programs that have had such a profound impact on my 
constituents and yours could be cut in secret by an unelected 
and unresponsive board. For example, Head Start education 
program could be terminated, and not by the Education and 
Workforce Committee but by an unelected commission without 
public input and bypassing regular order.
    Supporters of these commissions often liken them to the 
Base Realignment and Closure Commission or the Greenspan Social 
Security Commission of the 1980's. Unfortunately, there is no 
resemblance between these important and necessary commissions 
and this unnecessary and probably unconstitutional usurpation 
of congressional oversight which we are hearing about today. 
This proposal may create a sunset commission, but it should 
really be called a midnight commission because it would work in 
the dark of night to eliminate programs which some Members of 
Congress despise but lack the political will to change. This 
legislation is nothing more than the outsourcing of 
congressional oversight, and I hope my colleagues will see 
through this charade and turn the lights out on these 
proposals.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Tom Lantos follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.045
    
    [GRAPHIC] [TIFF OMITTED] T9331.046
    
    Chairman Tom Davis. Thank you for your statement. I will 
just note, Congressman, that the Congress did outsource the 9/
11 Commission, which came back with a number of recommendations 
that were then enacted, and on Katrina, the other side wanted 
to outsource that. We felt that was congressional. I guess it 
depends on the issue and where you stand on this. We will have 
a very spirited debate on this.
    Mr. Gutknecht.
    Mr. Gutknecht. Mr. Chairman, thank you. Where you stand 
depends largely on where you sit. And let me just say--and I 
suspect I may be stealing some of their thunder--I believe it 
was Mark Twain who once observed that the closest thing to 
eternal life is a government program, and we have tried a 
number of occasions to try to figure out how we can eliminate 
some of these unnecessary and duplicative programs, programs 
that have do have a constituency but, in the broader picture, 
really serve very little in terms of public purpose. And so I 
want to congratulate both my colleagues for being here today.
    I think these are issues that deserve serious 
consideration, and I certainly do not agree with my colleague 
from California that this is going to be done in the dead of 
night. This is going to be done with plenty of input from lots 
of people. But by going outside the political arena only 
slightly, it gives us an opportunity to succeed where 
heretofore, since 1995, 1996, we really haven't had a whole lot 
in terms of victories in the way of eliminating some of these 
programs that have probably outlived their usefulness. So I 
congratulate my colleagues for bringing this forward, and I 
thank you, Mr. Chairman, for having this hearing.
    Chairman Tom Davis. Thank you very much.
    Mr. Tiahrt, we will start with you. At least you can 
convince me and Mr. Gutknecht. We are here.

  STATEMENT OF HON. TODD TIAHRT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Mr. Tiahrt. I am looking forward to the opportunity to 
convince not only Mr. Waxman and Mr. Lantos but other members 
of--those who are in adversary to this concept. I would like 
unanimous consent to submit testimony for the record.
    Chairman Tom Davis. Without objection, so ordered.
    Mr. Tiahrt. Mr. Chairman, over the past 12 years, my time 
in Congress, I have looked at several different methods of 
trying to gain supplemental help for Congress to do its job of 
oversight. When I review my schedule on an annual basis, I 
realize that I have a very full schedule, and I know that it is 
true for each and every Member of Congress. We have trips to 
our home districts. We have instances that arise unannounced. 
We have legislation that carries us well into the night. We 
have opportunities to run for re-election or get rehired every 
2 years, and it keeps our schedule very full. And what is 
sacrificed with this busy-ness that goes on in our daily 
schedules is the ability to do proper oversight. There are many 
examples within the Federal Government of why there is a need 
for supplemental help in the oversight process. We heard 
earlier the gentleman from Nevada, Mr. Porter, talk about how 
many different people inspect pizzas across the United States. 
We had for over a century somebody who was assigned to the 
Federal Government to do nothing but taste tea, and certainly 
as the chairman has pointed out, we have had, since Katrina, 
attempts for oversight of FEMA that have yet to be I think as 
productive as we would like. Certainly, if you look at FEMA and 
all of the problems that were addressed that came out of that 
event, we realize that FEMA had no idea where all their 
supplies were or what procedures were in place or what was 
needed at the time, and there are materials that they purchased 
to date that are still unused because of one reason or another. 
When I think of how the private sector has advanced, FedEx and 
UPS. If you send a parcel with them, you can go online and 
check to see the position of that parcel any moment in time and 
know whether it has been delivered or whether it is en route 
and where it is en route. FEMA couldn't even find out how many 
bottles of water they had. If you look at Ocean Spray, they can 
track a bottle of cranberry juice across the Nation. They know 
how many are in stores, what stores they are. They know when it 
is time to refill an order. FEMA hasn't kept track of all the 
trailer houses they have purchased yet. There is a need for 
oversight. Congress simply doesn't have the time to do it. So 
the need is very real.
    This is a structure. This bill is a structure to set up the 
ability for us to have supplemental oversight. It consists of 
three members appointed by the President, four members that are 
taken after consultation with the majority--the Speaker of the 
House, the minority leader in the House, and the majority 
leader of the Senate and minority leader in the Senate. So 
there is congressional input on the selection of the committee. 
In addition to that, there is an opportunity for four ex 
officio members to attend the hearings, be part of the process, 
that are Members of Congress. For example, if it had to do with 
government oversight, the two ex officio members from the House 
could be Chairman Davis and Ranking Member Waxman who could be 
part of the process. Again, congressional input in the process.
    Chairman Tom Davis. Does it pay anything?
    Mr. Tiahrt. No. These are not--but you could put in for 
overtime as we do when we vote late.
    This committee would exist for up to a year, depending on 
the time necessary. They would be awarded staff, but these are 
voluntary positions. These are nonpaid positions. The staff, of 
course, would be paid, but extensions would be picked up for 
those members who are serving on this commission. It would be 
given the time and the authority to investigate properly any of 
the agencies or programs that they are looking at. These 
programs, by the way, are selected by either an Executive order 
from the President or they can be selected by a resolution from 
either the House or the Senate. Once that is put into place, 
the commission is formed. They are selected. They spend a 
period of time investigating the program, and then they would 
return to Congress with a recommendation.
    This recommendation would then go back through the 
congressional process of going through a committee for a 
specific amount of time. It could be amended, or it could not 
be amended. It will come to the House either with a 
recommendation or without a recommendation from the committee. 
But, again, Congress is involved in this process.
    Some of the criticism I heard this morning is outsourcing 
Congress. This is not outsourcing Congress. This is entwining 
Congress in the supplemental effort to have oversight of 
Congress. Another comment I heard was massive transfer of 
power. This is not a massive transfer of power. Nothing gets 
off the floor of the House unless it receives a majority vote. 
Nothing gets out of committee either with or without a 
recommendation or with or without amendments unless it has a 
majority vote in the committee. So it very much inserts 
Congress in this process from the time it is formed until the 
time it is passed onto both houses and to the President's desk.
    So I think what we have--and again, this is a structure. It 
is something that can be applied for different ideas or 
different problems that Congress faces over the next period of 
time. It is a framework. It is an ability for us to assist our 
job in oversight. It gives us necessary tools, and I would hope 
that the committee can successfully pass it onto the floor.
    [The prepared statement of Hon. Todd Tiahrt follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.047
    
    [GRAPHIC] [TIFF OMITTED] T9331.048
    
    [GRAPHIC] [TIFF OMITTED] T9331.049
    
    [GRAPHIC] [TIFF OMITTED] T9331.050
    
    [GRAPHIC] [TIFF OMITTED] T9331.051
    
    [GRAPHIC] [TIFF OMITTED] T9331.052
    
    [GRAPHIC] [TIFF OMITTED] T9331.053
    
    [GRAPHIC] [TIFF OMITTED] T9331.054
    
    [GRAPHIC] [TIFF OMITTED] T9331.055
    
    [GRAPHIC] [TIFF OMITTED] T9331.056
    
    [GRAPHIC] [TIFF OMITTED] T9331.057
    
    Chairman Tom Davis. Thank you very much, Mr. Tiahrt.
    Mr. Brady.

  STATEMENT OF HON. KEVIN BRADY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Brady. Thank you, Mr. Chairman, Mr. Cummings, Mr. 
Gutknecht, for the opportunity to testify today.
    I think this is the third opportunity I have had to testify 
before this committee over the past 10 years.
    I spent a considerable amount of time visiting with Members 
about the sunset commission, educating about how it works in 
the 24 States that use it, and we are always looking for 
opportunities to improve it, and I, too, would like to have 
consent to submit my written testimony.
    Chairman Tom Davis. Without objection.
    Mr. Brady. So I can be a little more brief. If there is an 
area where both parties can agree on, it ought to be that we 
can make this government run more efficiently. The programs 
ought not duplicate themselves. Our taxpayers ought to get the 
best bang for the buck, and it is not a Republican issue or a 
Democrat issue but a bipartisan issue to try to get the most 
out of our precious tax dollars.
    The sunset commission is a bipartisan approach that seeks 
to do that year after year to trim this government, to 
streamline it, to make it work better for the taxpayers. This 
is not a crash diet. It is, take off pounds sensibly month 
after month, year after year, until we make this government 
run; make it just as healthy and just as fit and just as 
efficient as we in a bipartisan way can do it. Sunset 
commission is proven. It is thoughtful, and here is how it 
works. Sunset commission is comprised of 12 members appointed 
by the majority, the Speaker and the majority leader of the 
Senate and equally divided with the consent of the minority. 
These 12 members must be equally bipartisan, not with the 
recommendation of the minority; the consent, the agreement of 
the minority. And that is because when Congressman Jim Turner 
and I, and Congressman Lloyd Doggett and I, and a number of us 
worked on sunset issues in the State legislature and in looking 
at the 24 States that already do it, creating a truly 
bipartisan commission made up not just of outside members, but 
in this case, 8 of the 12 will be legislators themselves, 
Congressmen themselves, we know that is the best way long term. 
We want the sunset commission to work, regardless of who is in 
charge around here, regardless of who is in the White House.
    The commission sets a schedule with the consent of 
Congress, puts a sunset date on every Federal agency that we 
deem. Our belief is that there ought not be any sacred cows. No 
agency runs as efficiently as it ought to. We want a model to 
justify its operations, its programs and how it serves the 
people. There ought not be sacred cows. And that is in truth 
how it has worked on the State level as well as very 
effectively. For the period that the agency is up for sunset 
review, the commission examines it. It looks at key issues: How 
efficient is it? What is the public need today, not the need 80 
or 100 years ago? What type of public service are we providing? 
What type of customer service are we providing? What type of 
public input do they regularly bring to their operations? Let's 
examine and measure how effective they are in responding to the 
Freedom of Information Act; how effective they are in providing 
equal opportunities to its workers; what type of programs they 
have that they duplicate for themselves; all of these, again, 
looking to a means to streamline, to identify duplication to 
make things run better.
    I keep saying this is a proven method because it has worked 
in 24 States for more than three decades. States like 
California, like Texas, and it is sort of hard to describe as 
extreme or radical a program that has worked for more than 
three decades in governments, Republican and Democrat State 
governments across this country, and it has proven its value.
    Texas, what I saw firsthand, Texas runs a good sunset 
commission. Over the years, it has abolished 52 State agencies, 
saved a little less than $1 billion and is strongly bipartisan. 
In fact, before this committee, Mr. Chairman, we have had both 
Democrat and Republican leaders of that sunset commission come 
here to testify as to its value. And at the Federal level, 
where on average every Federal program duplicates five others, 
we are simply at the time with this deficit and with this war, 
with the need to reduce the tax burden on American families, we 
just may need to make sure that we are running as efficiently 
as possible.
    And so I will conclude with this: Some people say we ought 
not make agencies justify their existence, but the truth of the 
matter is that every Member of Congress on this dais is sunset 
every 2 years. The President is sunset every 4; the Senate 
every 6. As we speak, there are hundreds of State agencies 
across the country justifying their existence, and each day in 
America, thousands of small businesses go out of existence 
because they did not serve those that they sought to serve and 
have a need for it. I believe this will be the first time that, 
in a bipartisan way, we can say to ourselves, let's put up or 
shut up; produce or leave; let's put money toward the programs 
that truly serve the taxpayers and then not a dime to the 
programs that don't. The sunset commission is proven.
    I would urge support, Mr. Chairman. Thank you.
    [The prepared statement of Hon. Kevin Brady follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.058
    
    [GRAPHIC] [TIFF OMITTED] T9331.059
    
    [GRAPHIC] [TIFF OMITTED] T9331.060
    
    Chairman Tom Davis. Thank you.
    Kevin, let me just start out by asking you, Mr. Waxman's 
assertion that, in 12 years, all these programs get abolished. 
Can you explain that?
    Mr. Brady. Yes, well, in truth, it doesn't work that way at 
all. What you want to do is set up a thoughtful schedule where 
you can look at each agency and not just by itself, which 
Congress tends to do, but grouping agencies by function so that 
you can group agencies across a broader field. That is what 
really that schedule drives at. The reason for a sunset date 
isn't so Congress will act. The truth of the matter is, we have 
had a lot of different studies both by Members and by agencies, 
but what do we do with those studies that help identify 
efficiencies? Rarely do we pick them off the shelf. The sunset 
date forces Congress in a sense to make sure we are looking at 
these key issues; that is all.
    Chairman Tom Davis. To both of you, I mean, these ideas--to 
give Mr. Waxman's arguments some credence--I mean, these are 
really born out of frustration of Congress's inability and the 
administration's to work regular order to try to cull out 
ineffective programs; isn't that correct? So we look at 
extraordinary circumstances that maybe will work because we 
haven't been able to do the job.
    Mr. Tiahrt. Well, the ship of state is a very large vessel. 
It is like an aircraft carrier. Members of Congress are like 
people in rowboats. And to get it to change direction means an 
awful lot of rowboats. This is a way for us to sort of increase 
the size of our vessel and get a little more help in trying to 
change the government to be a little more efficient.
    If you look at our track record over the last generation, 
Congress has done very poorly at oversight, and it is just a 
simple fact that we don't have the time to do the oversight we 
need to do. These are supplemental tools that will help us with 
that, and I think it has risen out of a sense of frustration 
because many efforts have gone forward. We have had the Grace 
Commission; we have had other commissions that haven't had the 
ability to get things done. Both these proposals have some 
ability to get things done by imposing some form of milestone 
to accomplish that task. So I think there--a good step in the 
right direction. I think they will be used by both sides 
regardless of who is in power to help this government save 
money and use it where it has a higher priority.
    Mr. Brady. To mix metaphors, Mr. Chairman, I am convinced 
that, if Congress were a manufacturing plant, we would 
manufacture spending; that is what we are designed to do. If we 
want to manufacture savings and efficiency, we have to retool 
the plant a bit, and I keep stressing this. We have to do it in 
a bipartisan way, long term, over the years. We just can't be 
building mini vans and then hope that we can build a more 
energy-efficient car. You actually have to take steps, and in 
the design of Congress, we tend to look, as you know on this 
committee, we tend to look at the trees because that is our 
jurisdiction. Sunset gives an opportunity to look at the forest 
as well.
    Chairman Tom Davis. Now, to be candid, only 39 percent of 
Federal spending is in the area that would be looked at. Is 
that correct? You have another 61 percent, at least under 
today's budget, interest on the debt and entitlement programs 
that we don't look at here. Is that----
    Mr. Brady. Yes. And one thing about the sunset commission 
is that, again, I would encourage to hold all agencies under 
sunset review because you also look at how those services 
deliver. Are we delivering them to the people when they need 
them on time, efficiently, and that is key.
    Chairman Tom Davis. Just to try to get a scope. We are not 
after entitlements here. That is another problem and issue that 
is going to have to be faced.
    Mr. Brady. Exactly. This is not the services. This is how 
well we provide these services.
    Chairman Tom Davis. Mr. Tiahrt.
    Mr. Tiahrt. The Government Efficiency Act that I am 
proposing here does have the ability to look at some areas of 
government that are mandatory that are not doing well. For 
example, in the State of Kansas today, one out of four Medicaid 
payments goes to the wrong address. It is in some fashion 
incorrect. Many aren't getting to the people that need to be 
paid. So that is something I believe we should be looking at. 
Why is the State of Kansas or other States so inefficient in 
distributing Medicaid funding? It should be, if we have 
somebody who qualifies, they should receive payment, and it is 
not happening today in my State, and so I think that would be 
one area where we could move forward in an area that quite 
often is protected by parochial interest, but this would allow 
us to be more efficient even in areas that are considered 
mandatory.
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, I will read my statement, and then ask 
questions if I have time. I want to thank you for holding this 
important hearing on these two legislative proposals. The 
Government Efficiency Act and the Abolishment of Obsolete 
Agencies and Federal Sunset Act, and I am going to ask Mr. 
Tiahrt and Mr. Brady to comment on one of my comments. They 
have been touted by the office as a way to oversee the work of 
the executive branch. I thought that was our job. Supporters of 
these so-called sunset bills present this as a good government 
issue. Pointing to jurisdictional overlaps in the Federal 
Government, they claim that commissions could be used to inform 
Members of Congress of the inefficiencies that exist.
    As a member of this committee, I have consistently 
supported efforts to make sure government runs as effectively 
and efficiently as possible, but I am not in the dark when it 
comes to the true intent behind the sunset legislation. Under 
both proposals, no Federal program or agency is exempt from 
investigation. That means programs that have consistently been 
the targets of overzealous reforms, programs such as TANF, 
Social Security, Medicare and Medicaid, are incredibly 
vulnerable. I think that there is no coincidence in the fact 
that the same Members who support sunset legislation are the 
ones who have consistently worked to gut or completely 
obliterate these programs through reorganization, underfunding 
and privatization efforts. The reality is clear, sunset 
legislation is just another way for a group of determined 
lawmakers to black out our Nation's great social programs. 
Efforts to do so through traditional legislative means have 
sometimes failed. So we are now seeing an attempt to bypass the 
democratic process by ramming these bills through Congress.
    For the record, I am not opposed to setting up independent 
commissions that advise the work of the Congress, but the 
commissions that are being proposed here would not be 
independent and not really advisory. To the contrary, under 
H.R. 5766, commission members would be appointed by the 
President, and under H.R. 3282, they would be appointed by the 
majority party. If either bill passes in this session, the 
commission obviously would lean heavily Republican, likely 
creating a built-in partisanship and bias.
    Even more troubling though, however, is the power that 
these commissions would have to fundamentally change Federal 
agencies and programs. Under H.R. 5766, commission proposals 
would be fast-tracked to the floor, bypassing the traditional 
legislative process. We do enough of that now. And under H.R. 
3282, agencies would be abolished 1 year after being reviewed 
unless they were specifically reauthorized by Congress. These 
bills go far beyond an advisory capacity, cutting into the 
constitutionally mandated responsibilities of Congress. My 
674,000 constituents gave me a certain level of power, and I 
don't want to lose one single bit of it. The work of Congress 
falls into three basic categories: making laws, conducting 
oversight and levying taxes. As an oversight committee, the 
Government Reform Committee is charged with identifying and 
addressing the areas where government is not running as 
effectively and efficiently as it should. For the most part, I 
think we have done a good job so far of putting partisan 
politics aside and evaluating Federal agencies and programs in 
a fair way. We may not always agree in our assessments, but 
dissent is a natural part of the democratic process. There are 
no compelling reasons for why we would hand over our oversight 
responsibility to a handful of partisan lawmakers or a 
Presidentially appointed commission. I hope that my colleagues 
who I know are well intentioned and who are supporting these 
bills would rethink their positions and listen to what the 
American people and their representatives are saying. Let's cut 
the waste, but let's not pretend that we are doing so by 
allowing allegedly independent sunset commissions to eliminate 
the vital programs which serve the neediest Americans.
    And let me--and only just one question. Mr. Brady, you said 
something that I found very interesting when we talked about 
how effectively the State folks were working with sunsets; 36 
States implemented sunset measures, for instance, in the 1970's 
and 1980's, but by 2002, almost half of those abandoned the 
concept and no longer have active laws. How would your bills 
differ from the failed sunset initiatives we have seen across 
the country?
    Mr. Brady. Mr. Chairman, if I may?
    Chairman Tom Davis. Go ahead.
    Mr. Brady. A couple of things. For one thing, I think you 
have gotten some bad information. The sunset commission is not 
an independent commission. It is made up of 12 members, 8 of 
whom are lawmakers or Congressmen or women themselves. It is 
not merely appointed by the majority. It is appointed by the 
majority with the consent of the minority. It is an exactly 
equally bipartisan commission for a reason, because the States 
that have committed to be more efficient and to streamline have 
discovered the only way to do it is to walk hand in hand in a 
bipartisan way and to do it over the years.
    It is true; 36 States have used sunset; 24 still do today. 
In examining those, what I discovered was, some say governments 
simply weren't committed to trying to streamline their 
government effectively over the years. They did it one time and 
said, this is too hard or we don't like this. It is too hard to 
work. And so they abandoned them. This is a budget tool that 
doesn't happen by itself. We actually have to decide to do more 
than talk the talk about efficiency. Everyone around here, as 
you know--you have seen them--they like to talk about 
efficiency and waste and fraud and abuse, but the truth of the 
matter is, we do a miserable job in a bipartisan way trying to 
make this government run more efficiently. We have 350 
different economic development programs. I confess, I don't 
know what they all are or how effective they all are. We have 
almost 500 different urban aid programs. I bet we can probably 
help inner cities better if we tried to look at how efficiently 
they are doing. For early development, which is a key I know 
for you, helping children get up to the right level before they 
start their school years, we have in early development 50 
programs spread out over eight different agencies. I am not 
convinced we can't deliver those services better to those kids, 
and the only way we could in my view and the way this 
commission was designed was that if Republicans and Democrats 
have to work together over a long period of time regardless of 
who is in charge around here and regardless of who is in the 
White House, if we want this to be an effective budget tool, we 
are going to have to commit to it ourselves, and we always talk 
about, some day we are going to do it, but why not do it now?
    Chairman Tom Davis. OK. Thank you very much.
    Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    And again, I want to congratulate both of you because I 
have sort of been involved in this battle before. When I was in 
the State legislature, I took it upon myself to eliminate a 
number of State programs, and I found out how difficult that 
really, really is. And I just want to remind our colleagues of 
something: When this country was founded, the President of the 
United States, the government was so small, the Supreme Court 
only met about 2 weeks a year. The President of the United 
States was given the responsibility of also being the 
superintendent of the schools here in Washington, DC.
    The government and the country have grown enormously in the 
last 200 and some years. As a result, it isn't just that we 
don't have time; it is just that the government has become so 
big that there is no way we can give adequate oversight to 
every single agency. And we have seen, as in the IBM ad that 
they ran for a number of months, where they had King Arthur and 
he was sitting around with some of his advisors, and they had 
hired this consultant, and the consultant throws a big bag into 
the center of the table, and King Arthur says, are you saying 
we should throw money at the problem? And the consultant says, 
precisely. And if you look at what we do, and I think Mr. Brady 
said it----
    Chairman Tom Davis. I think that consultant is still alive 
in Washington.
    Mr. Gutknecht. In fact, he has multiplied. There is a 
number of them out here. And that is basically the advice we 
get, whether we are dealing with the scourge of drugs or 
whether we are dealing with poverty programs or whether we are 
dealing with VA benefits or FEMA, all that, and so I know that 
this concept will have its critics, but I hope people will at 
least take a little bit of time and step back and say, look, 
the government has grown enormously in the last 200 years, and 
the idea that Congress has the time or the focus to really look 
at all of these programs objectively I think is hopelessly 
optimistic. And we have been throwing money at problems for a 
very long time, and some of those problems have actually gotten 
worse. And so I just congratulate you, and I don't particularly 
have a question. I mean, I understand what you are trying to 
do. I support what you are trying to do. I understand there 
will be lots and lots of critics, but I hope you will persist 
because I think, in the end, once the American people 
understand this debate, and understand this argument, I have to 
believe that the overwhelming number of Americans, even 
recipients of these programs, can perhaps be our best source of 
information in terms of the enormous inefficiencies that you 
see in the delivery of the services that many Americans do 
desperately need. So my hats are off to you, and I will help in 
any way I can to advance the cause.
    Mr. Tiahrt. Mr. Chairman.
    Chairman Tom Davis. Yes, Mr. Tiahrt.
    Mr. Tiahrt. I want to thank the gentleman from Minnesota, 
Mr. Gutknecht, for his comments, but I would also want to 
address some of the things Mr. Cummings brought up if I could 
take some time. There is one area that I want to bring up, but 
I think it is being overlooked in the Government Efficiency 
Act, and that is the congressional involvement in the process. 
All the critics seem to think we are avoiding our 
responsibility or usurping our responsibility to oversight. But 
in this process, from the very beginning, the selection of the 
issue or oversight program comes from either Congress or the 
President. Congress has the opportunity through a resolution of 
either the House or the Senate to have something presented to 
this framework, this efficiency commission. There is also a 
congressional involvement in the appointment process, three 
appointed by the President, two with consultation of the House, 
ranking--or minority/majority, two from the Senate majority/
minority. There is also the opportunity for ex officio 
congressional members to be a part of the commission. Four 
positions, two from the House, two from the Senate, and again, 
as I said earlier, if it was oversight, it could be Chairman 
Davis and Ranking Member Waxman. There is also--after the study 
is done by the commission, it then goes back to the Congress 
through the committee process. There is an amendment process; 
there is a recommendation process. Then it goes to floor vote 
of both the House and the Senate. There is deep involvement by 
elected Members of Congress in this process of oversight that 
is laid out by the Government Efficiency Act. And I just want 
to make that point for the critics.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    We will move to Mr. Lynch.
    Mr. Lynch. Thank you Mr. Chairman. I want to thank the 
members for coming before us with this initiative. I understand 
some of what you are trying to do, and I agree with some of it, 
but there are some serious questions here that I have. This 
looks a lot like the old Grace Commission, the Grace Commission 
was established by President Reagan basically to improve 
government efficiency, and it is funny how that worked out 
because the Grace Commission itself instead became a model of 
inefficiency, waste and corporate corruption. The commission 
had 2,000 staff members and cost the taxpayers about $75 
million, and you know, it was laughable actually. The 
commission recommended cutting military retirement benefits, 
similar to what the President has proposed, eliminating wage 
fairness protections and also a lot of regulatory protections 
for the environment. And as it turned out, the chairman of the 
commission, Peter Grace was later indicted, and his company WR 
Grace was found guilty of violating the very regulations that 
he was trying to dismantle. And so that is clear in my mind, 
and I am very concerned about this.
    It appears at least--the way these bills would work--and 
there are several versions, and I am going to talk about that 
in a minute--we would have to basically reconstitute government 
on a continual basis. We would have to revisit every single 
decision we have made and pull it up before Congress and both 
the House and the Senate and then give the President another 
chance to veto every prior decision of every prior Congress, 
and that just seems to me to create a tremendous burden on us, 
and I think it will really slow down the efficiency of 
government rather than enhance it. And I have enormous respect 
for both of the gentlemen that are here today testifying. I 
really do. I know you, and I know your work, and I appreciate 
what you are trying to do. But I am very concerned about--the 
President has suggested cutting veterans' benefits and 
eliminating COPS grants, and much of the work that we used to 
do in Congress we now dole out in community development block 
grants to the cities and States, and we ask them to do it. Now 
after we have given them the responsibility for doing the work 
we used to do, now we are suggesting cutting the money that we 
normally used to give them. And so it is just--I just think 
that it is a good idea to, you know, to get rid of waste, fraud 
and abuse. I don't think these bills necessarily have focused 
on that.
    I do notice that, on a couple of earlier instances, both of 
the gentlemen, Mr. Brady and Mr. Tiahrt, before us have 
suggested similar bills but with some exemptions for certain 
programs that were deemed to be too important to subject to 
this process. And I am just wondering, for instance, 
Representative Brady, in addition to the bill before us today, 
H.R. 3282, you also introduced H.R. 3277, except in that case, 
it exempts certain regulations from abolishment regarding 
environmental health, basic health and safety, civil rights 
protections and those regulations that enforce those 
activities. Am I to assume that because the current bill before 
us doesn't have any exemptions that you no longer support those 
type of exemptions?
    Mr. Brady. No, I do. I think those are very important. 
Those came about because of discussions we have had with 
members over the years, and should this committee choose to 
mark the sunset commission up, we will ask Mr. Porter to offer 
an amendment, who has worked with us as well, to insert those 
because the goal of the sunset commission is not to boss 
regulations on environment, education, civil rights, all that, 
that is not it. It is a way for you and me to, over time, over 
the years, very thoughtfully, Republican and Democrat, try to 
make this run more efficiently. And one of the reasons, again, 
Congressman Jim Turner and I, who served together in the Texas 
Legislature; Lloyd Doggett, who created our sunset commission; 
the wide range of philosophies that believe in accountability. 
Here is my other key point. We live in a time where we don't 
really trust each other up here, and so everything is seen as a 
partisan bill.
    Mr. Lynch. That doesn't apply to me. And I don't think it 
applies to you either. But----
    Mr. Brady. But it is a fair question. We have tried 
painfully to create a commission that will work regardless of 
who is in charge here, regardless who is running the House, 
Senate or the White House, so it will work over time because, 
in looking at the States that have used this, some not very 
well, some very well, it is that bipartisan approach that 
works.
    Mr. Lynch. Fair enough. If I could just, just reclaiming my 
time. Also Representative Tiahrt, you also, at one point, you 
introduced a bill, H.R. 2470, similar to the one we are 
considering today. However, H.R. 2470 expressly exempted 
entitlements, certain entitlements, and focused on nondefense 
discretionary spending. Now, I understand that Medicaid, 
Medicare and Social Security would have been exempted in the 
earlier version as well as, I guess, Defense. Now, given the 
fact, you know, the other subcommittee that I serve on here 
proudly is investigating Halliburton, we have about $9 billion 
missing over in Iraq, No. 1, do you still think that, you know, 
in light of all the waste, fraud and abuse that is going on in 
the Middle East and the huge numbers we are talking, should we 
still exempt the military? And do you think that Medicare, 
Medicaid and Social Security should be similarly protected?
    Mr. Tiahrt. Thank you for the question, Mr. Lynch. And 
CARFA was designed--the first one you referred to was the 
Commission on Accountability and Review of Federal agencies, 
CARFA. It did set aside Defense because it was a BRAC-like 
process, a Base Realignment Commission process, that was being 
done in the Department of Defense. I set it aside. I didn't 
think we had time to look at other mandatory spending. But in 
talking with others about what is going on, certainly we need 
to look at what is going on with Halliburton and other 
contractors in Iraq and see if there is justification for how 
the money was spent or if it was--what happened to the money. I 
think that is a valid thing to look at. What made me open my 
eyes to other entitlements was the State of Kansas where I am 
from. I represent the Fourth District of Kansas, and I found 
out that in Medicaid payments, one out of every four Medicaid 
payments done by the State of Kansas is incorrect. It either 
goes to the wrong address, it has the wrong amount, or it 
doesn't get there at all. And I talked to Ways and Means about 
this. Ways and Means doesn't have time to do it. Somebody has 
to be able to go look at these issues that pop up where there 
is a problem, where people are not properly being served, and 
this is an issue that could have been generated by me through a 
resolution on the House, and I think you would have supported 
me on trying to straighten out this process because people of 
need are not being served properly. So this is just a framework 
to address defense, mandatory spending and discretionary 
spending that says, if an issue pops up that we believe needs 
to be looked at with some leverage and with some additional 
tools, here is a framework to do it, and that is what the 
Government Efficiency Act is about. It involves Congress along 
the process. We can even initiate the issues like I would like 
to do with the State of Kansas, and I think you would join with 
me, and that is why I am trying to set up this framework for us 
to reach out and make this more efficient.
    Mr. Lynch. Well, I appreciate that, and I appreciate the 
spirit in which it is offered, but looking at this, you know, 
it seems to me that--and I will conclude my remarks--it just 
seems to set up a conveyor belt that every single regulation 
that we visit and settle on is going to be continually sent 
back to us, and we are going to have to revisit all of these on 
a continual basis. I think it is going to cause a tremendous 
amount of work here, and it is actually going to hurt the 
efficiency of government if we are reviewing programs that we 
are all in agreement that work. I would rather just focus on 
those problem areas, as you suggested. So it is not a question 
of what you would like to do. It is really a question of how 
best to do that. Thank you. I yield back.
    Chairman Tom Davis. Thank you. Ms. Schmidt.
    Mrs. Schmidt. Thank you, Mr. Chairman, and thank you 
Congressman Brady and Congressman Tiahrt for this legislation. 
When I was in the State legislature, we had situations where we 
really had duplicative agencies, and it was very difficult to 
get one of them removed because the bureaucracies that were 
created with those agencies didn't quite frankly want to lose 
their job, and I wish we had a provision that would 
automatically review the necessity of all of those agencies on 
a timely basis so that we could have better utilized the money 
that we were spending from our citizens in Ohio. It appears to 
me that this is what you are really looking at doing in this 
legislation; am I correct in assuming that?
    Mr. Tiahrt. I think Kevin probably would want to address 
it. Periodically, the Government Efficiency Act was designed to 
set the framework that we could look at anything. There are 
three ways that an issue or a program or an agency could be 
looked at. One would be an Executive order from the President. 
The other one would be a resolution that was generated in the 
Senate. Another one, resolution generated in the House. Those 
things all would have to have congressional approval before 
anything was done, but it is a way for us or each Member to 
have the opportunity to bring forward some agency program or 
issue that needs to look--be looked at with more detail and 
more leverage.
    Mr. Brady. Congresswoman, tell me again the question on the 
regular----
    Ms. Schmidt. The question was, on a regular basis, would 
this set up a mechanism that these agencies, these programs 
would be reviewed in sunset--there would be a sunset provision 
to see the necessity for these programs and the agencies that 
provide the framework for the program?
    Mr. Brady. Your examining on a regular basis is really key 
to identifying efficiencies. If agencies know that they are 
going to be examined on a regular basis, if Congress knows that 
they will be examining on a regular basis, and you continue to 
do it so that you never allow them to drift out, that we are 
always looking at better ways to deliver our government 
services, in the States that have really had success, that has 
been a key part of it. Those who stop--some States have stopped 
after one round of sunset, and then the efficiencies just sort 
of grow back. They trim the tree; they get it down a little 
healthier, and it goes away. The States that have continued to 
do this have the best results. And I will tell you, 
Congresswoman, I believe in sunset so much that agencies ought 
to justify their existence just like you do every 2 years that 
I sunset the sunset commission so if this thing doesn't work, 
we will send it back in 2.
    Mrs. Schmidt. And the followup, sir. There is--what would 
the cost for this commission, and would we just be creating 
another unnecessary bureaucracy but albeit with a sunset just 
in case it didn't work to be eliminated?
    Mr. Brady. Thank you. The sunset commission, because it is 
made up of 12 members, equally divided Republican/Democrat, 8 
of them Members of Congress, so that we have impetus within our 
ranks to continue this savings and efficiency. I don't have an 
estimate for the cost. At the State level, they are not huge 
commissions at all. And I know that, in Texas, we have this 
fairly sophisticated--does a good job I think, but for every 
dollar that they have spent in the commission, they have saved 
about $36 for taxpayers. So their return on investment is 
pretty solid. But even dollars aside, I actually think the best 
benefit of it, it has forced Republicans and Democrats 
throughout decades to work together on how we can make things 
run better; that to me has been even the greater benefit.
    Chairman Tom Davis. Thank you.
    Ms. Watson.
    Mr. Watson. Yes, I would like to read my statement because 
it contains the concerns that I have and questions, too. And I 
am very concerned.
    And thank you, Mr. Chairman, for holding this hearing and 
for the two witnesses who have come forward with their own 
proposals. But I am very concerned about ensuring our 
constituents that our government indeed is free of waste, fraud 
and abuse. And I don't think it really gets to it because I see 
that we spend $8 billion per month in Iraq, and there is $9 
billion, as has been mentioned, is missing, and we haven't had 
the kind of in-depth oversight hearings that we should. The 
Federal Government has a very important role to play in meeting 
the public's needs, and I want to make sure that our resources 
are serving those goals.
    I am troubled by the sunset commission bills because I fear 
they will end up stripping away the programs we need to 
adequately serve the public. Since I myself was a State 
Senator, I have always been concerned about important public 
health issues, such as cardiovascular health, diabetes, 
obesity, and how these health issues lead to community health 
disparities.
    Our State and local governments, and our nonprofit allies, 
are all doing good work to meet these needs, but they need 
help. There is too much work for them to be going and doing it 
alone. That is why we need Federal programs to help them out 
and put national resources into these national health issues.
    Programs that could help meet these needs have been put on 
the chopping block. For example, the Rural and Community Access 
to Emergency Devices Program is a program to make grants 
available to areas that cannot otherwise afford the technology 
that can bring life or death for people experiencing sudden 
cardiac arrest. Rural areas and low-income communities need to 
close this gap in their public health resources.
    The demand is great, but the resources are now 
insufficient: Between 2002 and 2004, less than half of the 
grant dollars requested by the States for this program were 
awarded.
    The White House tried to eliminate this program entirely in 
the last budget, and Congress has been able to save this 
program from the chopping block. But if these sunset commission 
bills pass, Congress will have its hands tied.
    So, Mr. Chairman, these bills do not represent what I feel 
the authors' intention might be; and I feel they would have 
significant impact on the poor and disadvantaged communities, 
who already suffer intense disparities. Neither of these bills 
has any exception--and if I am wrong, please correct me--and no 
program or agency is off limits from scrutiny; and I feel, from 
a national perspective, this is unacceptable. So I urge my 
colleagues to take a deep look.
    I don't think these bills are ready to go forward, and I 
would like the two authors to come together with their bills 
and make it real clear what the exceptions and the exemptions 
are, what would be protected. I think we ought to look at the 
military programs as well, because I feel that is where a lot 
of the waste and probably fraud and abuse might rest, and I 
think just the social programs and environmental programs could 
come under the knife.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.061
    
    [GRAPHIC] [TIFF OMITTED] T9331.062
    
    [GRAPHIC] [TIFF OMITTED] T9331.063
    
    Ms. Watson. So my question to the two of you, do your bills 
currently have exemptions and exceptions for health safety, 
civil rights and environmental protections.
    Mr. Brady. Let me tackle that. Because I agree with you. 
Those are important regulations. Those are important to be 
protected. In one of our previous bills we intend to add that 
language that has come from discussions with Members of both 
parties.
    Let me make one point very clear. The sunset bill in my 
view should not decide which agencies are exempted. Congress 
should decide that. The first order of business for the 
bipartisan sunset commission is to submit back to you and me, 
Ms. Watson, the schedule of the agencies when they come under 
review. If we feel some agency shouldn't or the timing is wrong 
or there is some motive we don't like, then we ought to move to 
exempt them and change that schedule.
    Now I will tell you my view. I don't think we should exempt 
any agency. I think they should be held equally accountable. 
Because whether they are the Pentagon or Health and Human 
Services or whomever, I think we ought to be examining, as 
Republicans and Democrats, how well they do their job. And I 
don't believe looking at the State level, as you have in 
California with your sunset commission, what you are really 
looking to do is identify efficiencies, do it in a bipartisan 
way and deliver those services better.
    And the Department of Education has been raised by Mr. 
Waxman, a great issue or agency to raise. At the State level, 
no major agencies have been abolished, but they've always 
examined how well they delivered their services. This is an 
opportunity whether it's the Pentagon, whatever agency it is, 
for us as lawmakers to look across a broader range of services, 
their public service, their programs, to find ways where we can 
do--where we can deliver those services better.
    So the answer is, yes we are going to add those provisions. 
I think we will give you comfort.
    Second, I think Congress will, in the separate legislation, 
approve the schedule so that you and I and Stephen and whoever 
else wants to have a say in what agencies are reviewing and 
what time table will have that final say.
    Ms. Watson. If we still have time, I'd like Mr. Tiahrt to 
respond.
    Mr. Tiahrt. Ms. Watson, thank you for the question.
    I think it is important to note that the Government 
Efficiency Act is not a policy driven act. It would not abolish 
any of our policies set forward like civil rights or health 
care.
    Health care, though it would allow us, if we choose or if 
the President thinks it needs to be looked at for efficiency 
reasons, we could look at how Medicare is being delivered in 
Kansas. Now it doesn't eliminate Medicare by any means, but it 
could give them a more efficient way to present or to pay for 
and to provide health care to people who are poor in Kansas.
    Something that I would like to do but I cannot get the help 
from the Ways and Means Committee, I don't have time myself to 
go back to the State and go through all of the system and try 
to get a more efficient delivery method, but if I could get a 
regulation through the House as an example and a commission was 
set up with congressional input, I would like to be one of the 
ex-officio members so I could see how health care is being 
delivered to those who are living--who qualified for Medicaid 
in the State of Kansas; and I would like to help improve that 
process.
    This would give me a means to do that in leverage, also. I 
could use the commission to help me find efficient ways of 
making sure that health care is properly delivered in Kansas. 
Right now, today, only three out of four attempts of getting a 
payment made properly in Kansas occurs. One out of four is 
incorrect or doesn't reach the proper person.
    So I think we need some help. I think, if we admit it, we 
do need some help with oversight. This is a way of allowing 
Congress' input in this process to leverage on or process in 
oversight.
    You also mentioned defense. Defense should be included. It 
is included in the Government Efficiency Act.
    Chairman Tom Davis. I think what we need to do is move to 
the next panel. If you have one more question, I'll let you go 
ahead.
    Ms. Watson. My question is, is there a possibility that we 
can merge these two bills and, Mr. Chairman, bring a singular 
bill back that addresses the concerns that we have stated today 
and then go through it? Is that possible?
    Chairman Tom Davis. I think we are on a time line where 
this comes next week.
    Mr. Tiahrt, go ahead.
    Mr. Tiahrt. We tried to merge the two bills for a long 
time. Stephen and I worked together for a long time to do it. I 
think it was a collective decision that we were supposed to 
merge them together. We wanted to merge them together. It was a 
collective decision not to. It was based on timing, and at some 
point I hope that we do have the ability to merge them because 
I think that the Government Efficiency Act provides the 
framework to carry out a sunset commission if it's chosen, and 
I think it should be. So we do try to merge them and thanks for 
the idea. It was a good idea.
    Chairman Tom Davis. It is a long process here as we go 
through here and get to rules and the floor and who knows. But 
I appreciate your comments. Thank you.
    We will take a 2-minute recess before we move to our next 
distinguished panel.
    [Recess.]
    Chairman Tom Davis. We have our next panel: James Horney, 
senior fellow, Center on Budget and Policy Priorities; and 
Charles Loveless, the legislative director, American Federation 
of State, County and Municipal Employees. Thank you both for 
being here. I look forward to your testimony.
    Raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. As with our previous speakers, the 
entire testimony is in the record. If you can keep it to 5 
minutes, the green light will go on, then the orange after 4, 
right after 5. We are having a vote sometime. Let's get through 
testimony, and we might get through questions.
    Thank you.
    Mr. Horney, we will start with you.
    Mr. Horney. In addition to my written statement, I would 
like to submit for the record a paper that I have written that 
goes into some more detail about.
    Chairman Tom Davis. That would be great. Without objection, 
be so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.064
    
    [GRAPHIC] [TIFF OMITTED] T9331.065
    
    [GRAPHIC] [TIFF OMITTED] T9331.066
    
    [GRAPHIC] [TIFF OMITTED] T9331.067
    
    [GRAPHIC] [TIFF OMITTED] T9331.068
    
    [GRAPHIC] [TIFF OMITTED] T9331.069
    
    [GRAPHIC] [TIFF OMITTED] T9331.070
    
    [GRAPHIC] [TIFF OMITTED] T9331.071
    
STATEMENTS OF JAMES R. HORNEY, SENIOR FELLOW, CENTER ON BUDGET 
  AND POLICY PRIORITIES; AND CHARLES M. LOVELESS, DIRECTOR OF 
LEGISLATION, AMERICAN FEDERATION OF STATE, COUNTY AND MUNICIPAL 
                       EMPLOYEES [AFSCME]

                  STATEMENT OF JAMES R. HORNEY

    Mr. Horney. Thank you very much for having me, allowing me 
to testify today.
    I want to start off by saying that I agree completely with 
Mr. Brady's main point, which is there are improvements in the 
government operation, greater efficiencies that be can be 
achieved that should be able to--and I think would--gain broad 
support from the public and broad bipartisan support in the 
Congress.
    In fact, I think he's correct, that the only way you are 
really going to deal with these reorganization issues and 
Government Efficiency Acts is through long-term, bipartisan 
cooperation in the Congress. Unfortunately, I don't think the 
commission procedures that are in this two bills that are 
before you today are likely to lead to that result. Let me 
explain why.
    The combination of the composition of the commission, the 
rules governing how the commission can report out 
recommendations and then the special procedures that allow 
either the elimination of the program or changes in the program 
or agency without legislation going through the regular 
legislative process is more likely to lead to partisan kinds of 
efforts that in the long run are not going to be successful.
    First of all, the commissions established would have strong 
partisan majority case of 57-66. It would be 5-2 partisan, 
depending on who is the President at the time.
    In the case of Mr. Brady's bill, he's absolutely correct, 
that the way the bill was introduced there would be eight 
Members of Congress and they would be four Democrat, four 
Republicans. But the way I read the bill as it was introduced, 
there is no requirement that the other four members who are not 
Members of Congress be from different parties; and it would 
allow the Speaker and the Majority Leader of the Senate, I 
believe, to appoint members that are all from the same party. 
It's possible that there would be an understanding now that is 
not how it worked, but since this is an ongoing process that 
would not necessarily keep.
    So I believe in fact you would be likely to end up, if not 
now, at some point with an eight to four partisan majority 
split in that commission that would be established under H.R. 
3282.
    Second, the commissions that would be established can 
report recommendations with a simple majority vote. There is no 
requirement for having super majority, which means there is no 
requirement to get any support from the minority party members 
of the commission, no incentive for the members of the 
commission to search for a broad consensus on the commission.
    I also need to point out here I think that in fact the 
legislation, both bills as drafted, really do not limit what 
the commission can recommend except in the case of H.R. 3282 
which says specifically they can't recommend levels of 
appropriations. But in fact I believe, both bills, the 
commissions would be within the light set forward in the 
legislation to report--recommend changes in entitlement 
programs and how they operate programs such as Medicare, farm 
programs and so on.
    That may be not the intention of Mr. Brady, although Mr. 
Tiahrt said he thinks they should look at entitlement programs, 
but I think in both cases they could do that.
    Then, under H.R. 5766, the legislation comes up and it 
could be considered under procedures that would be fast-
tracked, allow very limited debate, no more than 10 hours on 
the House floor and no amendments on the House floor. As 
written, if the committee of jurisdiction over the particular 
proposal were to reject the proposal or report it with an 
amendment, then it is considered under regular rules of the 
House. But if it doesn't take either of those two steps, then 
the bill goes directly to the House floor for only 10-hour 
debates, no amendments. If the chairman of the committee of 
jurisdiction over the proposal declines to have a committee 
mark-up on the proposal, there wouldn't be any chance to have 
amendments in committee. This does not seem like a process, it 
seems, designed to encourage broad bipartisan support.
    H.R. 3282 does include those fast-track procedures, but it 
does call for automatic sunset programs. The problem there, of 
course, is that a minority in Congress could block the 
reauthorization. In fact, if they have the support of the 
President, it would take just over one-third of either of the 
House or the Senate to prevent that legislation from going 
through.
    Given the makeup of the committees, the way the commission 
would operate and the procedures that happen, I think it's more 
likely these procedures would encourage a partisan approach. I 
think that the leaders who would appoint the members of the 
commission and the members of the commission themselves would 
be under tremendous pressure from the most partisan members of 
their party to use this process to try to get things through 
that those members, both parties members, have been unable to 
achieve by convincing Congress that this is something that 
should be done through the regular process.
    It's in stark contrast to the Greenspan Commission, people 
who have talked about as an example of a commission that worked 
that had an eight to seven split and no fast-track procedures, 
and it did encourage--brought bipartisan support. They had 
brought support across the commission and in Congress.
    One last thing I would like to just note is it's not clear 
to me from H.R. 3282 what happens if an agency is abolished. 
Unlike the President's proposal, which says that agencies in 
the programs within the agency are abolished, it simply says 
programs, but it doesn't say what does that mean. What does it 
mean if the tests for Medicare-Medicaid services are abolished 
and no provisions are made in legislature for Medicare to be 
operated by another agency?
    A similar proposal was offered on the House floor in 2004. 
One of the cosponsors, then Congressman Jim Turner of Texas, 
offered assurances to Members that no programs would be 
abolished; and he said there was specific language. But I can't 
identify any language in either that amendment or H.R. 3282 
that makes that clear.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Horney follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.072
    
    [GRAPHIC] [TIFF OMITTED] T9331.073
    
    [GRAPHIC] [TIFF OMITTED] T9331.074
    
    Chairman Tom Davis. Mr. Loveless, thank you.

                STATEMENT OF CHARLES M. LOVELESS

    Mr. Loveless. Thank you, Mr. Chairman, Mr. Gutknecht. It's 
a pleasure again to see you again.
    I am testifying this morning not only on behalf of my unit 
but on behalf of the 14 million men and women who come from the 
AFL/CIO, and I want to make it very clear that we are 
fundamentally opposed to both of these bills. We are strong 
advocates of improving government accountability to the public. 
If we have time later, we can talk about some of our ideas in 
that regard, but we do not think that either of these bills is 
going in that direction. In fact, in the name of improving 
government efficiency, we think these bills are going to 
trample basic democratic processes and principles.
    At its essence, sunset commissions--that sunset commission 
process is designed to further enhance the power of the 
executive branch, we think, over the legislative branch and to 
further exclude the public from decisionmaking. And this is 
because of the way that the commissions are composed under both 
of these bills, how they are to conduct their business and how 
the legislative process will unfold once a commission issues 
its recommendations.
    Under the bill that's been introduced by Mr. Tiahrt, 
commissions would be established through appointments which are 
made by the President. Certainly the views of the executive 
branch are going to dominate commission recommendations, and 
the fast-track procedures that have been set forth for 
congressional consideration under his bill give precious little 
time for Congress to evaluate the recommendations of the 
commission.
    We also think that executive authority significantly 
strengthens under the bill that is introduced by Mr. Brady. 
Because of the President's veto authority, agencies could be 
abolished even when you have a solid majority of both Houses of 
Congress who have acted to reauthorize an agency; and because a 
failure to reauthorize an important agency would really be a 
catastrophic outcome, we think that the leverage of the 
President is going to be really major and massive in that 
process.
    There has been a recent disturbing trend noted by a number 
of observers of Congress that Congress has failed recently to 
live up to its oversight responsibilities, and these bills we 
think are going to codify a secondary role for Congress if the 
over--it is reached. We think it resolved for itself.
    I have never quoted this man, but I am going to do it 
today. Former Speaker Gingrich I think said it well. He was at 
a--participated in a program I think during the last week, and 
he said clearly that Congress has failed effectively to respond 
to crises at home and abroad. He said--and I am quoting him--it 
is important to have an informed, independent legislative 
branch coming to grips with this reality and not sitting around 
waiting for Presidential leadership.
    We do not need a new rigid, automatic process as imposed by 
these bills for Congress to meet its basic constitutional 
responsibilities. We have the budget, the appropriations and 
the authorization processes whereby Congress can make any 
changes that it deems appropriate in programs and agencies.
    The key point that I want to make this morning is that, in 
our view, these bills inevitably are going to be used to hurt 
programs that benefit working families. To get an insight into 
this, just look at the President's most recent budget 
submission where he targeted a number of education, social 
service, law enforcement and other programs and agencies that 
we think that benefit working families; and, of course, tax 
cuts that in recent years have overwhelmingly benefited the 
high-speed people in our country have been totally taken off 
the table.
    But a substantial harm we think could also be caused by 
recommendations to change programs and agencies, including 
programs that eliminate worker productions, weaken enforcement, 
undermine the missions of programs and agencies through 
consolidation.
    One example is a commission calling for the abolishing of 
the OSHA, our safety and health administration, but it could 
weaken its enforcement capacity and, therefore, it would be 
incapable of enforcing the regulations that have been set out 
for its responsibility to enforce.
    I agree with Jim we have no doubt that the commissions 
established by either bill are going to be used to advance an 
agenda to severely cut back on Medicare, Medicaid and Social 
Security. We definitely think entitlements are covered in one 
way or another under these two bills.
    Let me just conclude, Mr. Chairman, by saying that we 
believe that both bills are essentially undemocratic. They do 
not serve the public interest, and we think they should be 
rejected by this committee.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Loveless follows:]

    [GRAPHIC] [TIFF OMITTED] T9331.075
    
    [GRAPHIC] [TIFF OMITTED] T9331.076
    
    [GRAPHIC] [TIFF OMITTED] T9331.077
    
    Chairman Tom Davis. Let me start, Mr. Horney, with you.
    If we were to make the procedural changes that you 
suggested, which I think are very constructive, by the way, we 
still wouldn't be convinced that this is probably the way to 
go.
    Mr. Horney. My gut reaction, it is better for the Congress 
to do its own work.
    But I have to say there have been times when a properly 
constructed commission has helped. I think the 1983 Greenspan 
Social Security Commission is a good example, where you had a 
problem that everybody agreed had been solved. It was political 
and difficult. You had brought support. You had the President, 
you had the Speaker of the House, you had Republican and 
Democrat leaders who all got on board and said, let's do it, 
put a commission together to help us come up with something and 
generate public support and support in Congress.
    So my first instinct would be I don't think it is time to 
do that here. I think that Congress can address these issues. 
It has done some, not enough.
    It was interesting Mr. Tiahrt mentioned the tea tasting 
that has been eliminated. Congress has responded when it was 
identified----
    Chairman Tom Davis. We bagged it.
    Mr. Horney. Exactly. So when an egregious example was 
identified, Congress got rid of it. So my preference would be 
to do it through the regular process. If you need a commission 
I think with some changes, significant changes be both on the 
commission and not having the fast-track procedures, it could 
be useful.
    Chairman Tom Davis. I mean, I think, Mr. Loveless, you put 
it well. You are skeptical of the whole agenda at this point.
    Mr. Loveless. I think so. And I just--you know, we heard a 
lot about the experience of States--varying States are used to 
these commissions, but in fact it's been a very mixed record at 
the State level. A number of States have eliminated their 
commissions in this area. Even in the State of Texas, it's been 
a subject of some controversy.
    But the fundamental difference between the States and the 
Congress is you are in year round. You are paid on a yearly 
basis. We are in all the time now. It seems like the Congress 
never goes home. You can't even take a vacation any more--let's 
be blunt about the whole thing--except for an August recess.
    Most State legislatures are in for a very small amount of 
time, and they operate every other year, what have you. So we 
can even argue the need for these commissions at the State 
level. I think it is a very different situation when you talk 
about the Federal Government and the role of Congress.
    Chairman Tom Davis. Let me ask you, it seems to me, as you 
take a look at trying to get spending under control, I think 
that is something everything should agree on. We can argue 
whether you have enough revenue and does it reduce economy. 
Everybody understands we want to operate and try to get 
spending under control and all have different priorities.
    But it seems to me when government needs to lose weight, 
the tendency is to chop off fingers and toes. When in fact the 
fat, if you will, is layered just throughout the way government 
does business and the way we procure goods. It is the way we 
react to things.
    If we would settle more on some of the business process--
the GAO has a lot of reports just showing programs that are not 
getting--you know, people that are getting mispaid, the systems 
that aren't working, that there is probably more money in that 
and are knocking out a few programs that you could reach a 
consensus on or consolidating programs.
    Mr. Loveless. I don't disagree with that. I mean--and there 
are a number of what I think are very positive, constructive 
suggestions that are out there. I know that Congressman Tanner 
has recently introduced a resolution that would require 
committees of jurisdiction to hold hearings, at the minimum, 
when the Inspector General or the GAO issues a report critical 
to the way programs are being administered by agencies. That 
seems to me to be a very sensible thing.
    We have another proposal--maybe I think this is too 
extreme--by Congressman Cardoza that would require 
reconfirmation of agency heads when agencies fail basic audits 
2 years in a row.
    There are a number of things that can be done, but what I 
object to is this automatic mechanical process that is fast-
tracked that I do not believe is going to give you, the 
authorizing committees who should know the most about the 
programs under their jurisdiction, the kind of time that they 
need to make the kinds of assessments that need to be made.
    Mr. Horney. If I could, one thing you noted, GAO, I think 
that in fact illustrates one important difference between the 
Federal Government and State governments. I think in some 
instances States may think that the commissions are useful 
because they need to get together people who can look at this 
and come up with ideas. They don't have the Office of 
Management and Budget that is running the part assessment 
program. They don't have the Government Accountability Office 
which, as you said, has enormous numbers of suggestions. They 
don't have a Congressional Budget Office that every other year 
publishes a budget options book with a lot of options. So there 
is a lot of information that is currently available about 
things that can be done to improve the operation.
    Chairman Tom Davis. A lot of this is also congressionally 
driven. When you get right down do it, jurisdiction drives this 
place and you get programs under different agencies duplicating 
everything else and you are asking for help.
    Look, I think you have given this a lot of thought. You 
give us some room on this. I am not sure we are going to get it 
worked out tomorrow. I think over the long term, as we get real 
on this, your comments are appropriate and I think give us a 
lot of food for thought when we get down to if this thing is 
going to happen or we get into conference. I appreciate you 
being here. I want you at the table should this come about. I 
think you represent a point of view and a constituent that 
needs to be there as well. I thank you for being here.
    Mr. Gutknecht.
    Mr. Gutknecht. I want to thank the witnesses and for the 
record to note that two Republicans were here to listen to your 
testimony. I think that should be noted.
    And I want to thank you for your testimony. I think there 
are philosophical differences we might not be able to bridge, 
but I do agree that we have fallen down on congressional 
oversight. But I do hope you understand there are limits to how 
much we can do, and there are all kinds of problems out there, 
and we don't pay enough attention to GAO and some of the 
agencies.
    Mr. Chairman, I do want to make this statement publicly. 
Having just come back from Iraq, I think there is one area that 
is absolutely crying out for congressional oversight hearings 
and that is that these contractors that we have hired for 
reconstruction and other efforts in Iraq--we have spent 
hundreds of millions, if not billions, of dollars, taxpayer 
dollars; and the results I saw were not what I expected to see. 
And it seems to me we have an obligation to the American 
taxpayers and to the Iraqi people to have some oversight 
hearings in terms of the contractors.
    Incidentally, just for the record, I was told by some of 
the people on the ground over there that, actually, Halliburton 
has been one of the good actors. They've actually done most of 
what they said they were going to do. It may have been at 
inflated costs, but some of the other contractors have taken a 
lot of money and we see almost no results. If there is one area 
where Congress should take very swift action and that is to 
have some oversight hearings on the contractors that have 
received enormous amounts.
    Chairman Tom Davis. We have done four, and we are going to 
do more this year; and we can do 30, and it probably wouldn't 
be enough.
    Mr. Gutknecht. I am much more interested in that particular 
issue. But I am not sure we will bridge this philosophical 
divide.
    Some of us believe--here's what I believe. If you see what 
is happening in the private sector today, every single company 
that I deal with in my district every day is trying to become 
more and more efficient. Why? Because the marketplace demands 
it, the pressure of the marketplace. They have competition.
    In fact, a classic story there is a little company in 
Redwing, MN. It makes boots. And the president of Redwing tells 
me--he said, every day I spend part of my day trying to figure 
out how to put more value in every boot we make here in 
Redwing, would be minimum at less cost. He said, do you know 
why I do that? I said, no, I don't. He said, because if I 
don't, my competitor will.
    The difference between us and the private sector is we have 
no competition, and there isn't that tension and that pressure 
every day. I think these two bills are an attempt to bring some 
of those outside tensions or pressures to force the Congress to 
do what it should be doing every day.
    So I thank you for your testimony. We have a slightly 
different philosophical viewpoint of this, but we would welcome 
any of your help in trying to make us more accountable to the 
taxpayers who pay the bills.
    Chairman Tom Davis. Thank you.
    Mr. Horney, I'll read what you have put in the record in 
addition, which--you didn't have to give this. But I appreciate 
both of you being here and look forward to hearing from you 
again.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T9331.078

[GRAPHIC] [TIFF OMITTED] T9331.079

[GRAPHIC] [TIFF OMITTED] T9331.080

[GRAPHIC] [TIFF OMITTED] T9331.081

[GRAPHIC] [TIFF OMITTED] T9331.082

                                 <all>

</pre></body></html>
